IN THE
SUPREME COURT
OF THE UNITED STATES

Pablo Enrique Rosado Sanchez — PETITIONER
v.
Banco Santander Puerto Rico — RESPONDENT
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the First Circuit
RULE 44.2

GOOD FAITH CERTIFICATION
REGARDING PETITION FOR REHEARING OF DENIAL
OF PETITION FOR WRIT OF CERTIORARI

FILED
OCT 0 7 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Petitioner Pablo Enrique Rosado Sanchez, pursuant to Supreme Court Rule 44.2
hereby certifies that the forgoing attached Petition for Rehearing and Request for Suspension
of Denial of Petition for Writ of Certiorari is limited to other substantial grounds not \/previously considered, and is made in good faith and not for delay. ‘,/
Submitted this Wednesday, October 7 2020

ctibif Ant,-bcd PckActc‘

1 21,,

By: Pablo Enrique Rosado Sanchez, Petitioner Pro Se
In Forma Pauperis
Urb. Levittown,
1093 Paseo Damasco
Toa Baja PR 00949
Telephone: 787-902-7153

Intervening Circumstances of a Substantial or Controlling Effect
and Other Substantial Grounds Not Previously Presented

1. The more recent credit application denials by Banco Popular of Puerto Rico A pp . C ).._E
(Popular Bank of Puerto Rico), C.F.P.B. complaint I filed included, with Bank's Response,
and Discover Bank, are substantial grounds proving
Banco Santander Puerto Rico incorrect, inaccurate, not precise, credit reports
Aep. F
(.4
C: 1935. 10-1
( I and 13)
continue even as I type this, to unfairly destroy my credit report, credit score,
for my 2 accounts clearly shown on my Petition No. 20-5069,

and any possibility for approval of any credit in order to pay attention to everyday needs
each and every person has, in the middle of this Pandemic World Wide Crisis.

This Pandemic requires each and every one of us to pay faster our previous debts,
while reducing the minimum payments required for each and every account
to the minimum, in the unfortunate case we are left without our job and salary
at any moment, plus, our daily needs continue to arise.

One of those needs, are required repairs for my motor vehicle, a super reliable
2005 Toyota Corolla I own since new, but now is close to 16 years of use
with more than 207,000 miles. Is normal it requires specific repairs,
but the excellent reliability of this brand is a blessing during this Pandemic,
not requiring us to buy another vehicle, when the possibilities for doing that
1
are non-existent, due to unfair credit reports from a main bank my Petition shows.

Fair Isaacs Corporation (F.I.C.O.) Credit Report as of July 27, 2020
FICO Score 8 based on Trans Union data, July 27 2020
used previously by Banco Popular Puerto Rico, and most widely used version
changed without notifying me before applying for this consolidation loan

A Fp 0._

2. The FICO Score 8 based on Trans Union, which I bought just hours

before visiting the local Banco Popular Branch located walking distance
from where I live with my Family, clearly shows at its heading
the most used credit score version by main Banks, like the ones included.

My FICO Score 8 based on Trans Union, was used by Banco Popular

App. B

until recently, but I was informed by Bank Officer after I made
the credit application, that Banco Popular changed to the newer
FICO Score 9 based on Trans Union data credit score model,

App. CL p cts . 1 - ..,

which no matter it evaluates the same things as any previous model,
the weigh given in points to each aspect of our credit reports changes,
resulting in a different credit score result when compared
to the FICO Score 8, which is still the most widely used by Banks,
as reported by the same Fair Isaacs Corporation, or F.I.C.O.

App.O.„
This change might look of less importance, but that is not true:
See FICO Report included, July 27 2020
Graph on
My F.I.C.O. 8 Score based on Trans Union data for my credit report
was 703 points on July 27, 2020: The bank risk is considered low at only 6 %; Page 4, FICO Rep.
Page 2
My F.I.C.O. 9 Score based on Trans Union data for my credit report
was 681 points on July 27, 2020: the risk increases to 13 %, more than double,
resulting in an automatic credit denial for a consolidation loan of $5,000 at Banco Popular P.R.

Banco Popular did not included in writing, their specific reasons
for denying my Application No. 2020 21010 46470 of July 28 2020

App_A

as shown in the Credit Decision Notice dated July 30 2020 received by mail.

The Bank Officer Mrs. Irmaris Velez informed me verbally over the phone
their specific reasons. See Credit Decision Notice and Loan Application Notice

App i

Banco Popular Specific Reasons for Loan Application Denial
as informed verbally by Bank Officer

3. The Bank Officer clearly said to me over the phone:

the reasons for denial were the delinquent status of my 2 accounts
with Banco Santander Puerto Rico;

App
C: pus. 10,1 3

My Petition No. 20-5069 clearly shows, this 2 accounts are not delinquent,
but still paid directly to Banco Santander. After all the steps
described and evidenced on the Petition, both accounts are Paid as Agreed
to the Bank where this accounts originated: Banco Santander Puerto Rico,
now part of First Bank Puerto Rico.
One of the negative aspects of the newest FICO Credit Score 9

A pp .

Rgs

is that it penalizes the customer much more than the previous
FICO Score 8 version when there are negative unpaid collections
reported from any banking institution,

A pp .P

NO MATTER THOSE REPORTS ARE INNACURATE, LACKING EXACTNESS,
NOT PRECISE, AND FALSE, DAMAGING OUR CREDIT UNFAIRLY
AS CLEARLY SHOWN ON MY PETITION NO. 20-5069.

A pp -.Fe

See Article included

Page 3

Discover Bank Loan Pre-Qualification with No Penalty to Credit Score
Reference Number 000820266158076, September 22, 2020
Loan request was denied with no penalty: SAME INCORRECT REASONS
BANCO POPULAR DENIED
MY REQUEST WITH PENALTY
4. The Discover Credit Decision Letter says, and I quote:

App

"RE: Your recent request
Dear PABLO ROSADO,
Thank you for your interest in Discover® Personal Loans.
To ensure you're always informed, we're writing to let you know that we could not approve your
loan request at this time because:
. PAST AND/OR PRESENT DELINQUENT CREDIT OBLIGATIONS
. CHARGE-OFF
. INQUIRY(S) ON BUREAU REPORT
Keep in mind, your credit score will not be impacted by your request since we used
a soft credit inquiry to check your eligibility." See Discover Letter included
The Letter also says Discover Bank used a FICO Score version based on Equifax,
without specifying which FICO Equifax version, but the score used was even lower
than FICO Score 9 based on Trans Union, because Equifax, one of the main credit bureaus,
considers all the credit history length when calculating a credit score,
so the whole unfair weigh of this problem with Santander Bank o Puerto Rico,
is still taken into consideration when any Bank uses Equifax.

PP.

Type of credit score FICO (it could be FICO Score 9 on Equifax data, but was not specified)
Your credit score 660
Date September 22, 2020
Scores range from a low of 300 to a high of 850
Key factors that affected your credit score were as follows:
Key Factor 1 SERIOUS DELINQUENCY
Key Factor 2 TIME SINCE DELINQUENCY IS TOO RECENT OR UNKNOWN
P. 4
This information was provided to us by Equifax Information Services, a consumer reporting
agency.

Money Express, a First Bank Financial Branch, offers me same Loan
I requested to Banco Popular Puerto Rico: but at a 29.95 % interest rate
for affected credit

5. This $5,000 Pre-qualified loan offer, arrived through regular mail
with an offer code included and is valid until October 31st 2020.
Is originally written in Spanish.

A pp.,i)

It says, and I am making a non-certified English Translation
with the aid of the Google Translator, that allows me to write
on one side what it literally says in the original Spanish language,
and the Court could see it translated to English side by side.

A copy of the original is included for verification.
Because of Banco Santander inaccurate, incorrect, and against the Law
credit reports about this 2 accounts on my Petition my credit report appears affected unfairly.

This same amount of $5,000 could be approved at any main bank
without the affected credit criteria that results in the too high interest rate
of 29.95%, with a monthly payment that is simply against anyone in the middle of a Pandemic.

Page 5

Banco Santander keeps reporting my Loan account as Profit Loss
to the 3 credit bureaus as of today, October 6 2020, since May 26 2017
Now they report this loan as paid profit and loss paid after charge off collection
They prohibited my regular monthly payments last March 2020
to make it look like a profit loss, a Dirty Trick, No Court of Justice Can Allow.
6.

Wallet Hub, the only free credit score provider which updates

App. r--

the credit report daily, keeps showing the incorrect credit report. See evidence included
Wallet Hub does not provide any of the FICO Credit Score versions.
They provide a Vantage Score version based on Trans Union,
which shows a higher credit score than the ones provided by FICO,
but, they clearly express this score is not the one used by banks.
My 742 points score with Vantage Score Trans Union,

App.F

is around 702-703 points FICO 8 Trans Union and
680-681 FICO 9 Trans Union, FICO 9 based on Equifax data of 660.

Wallet Hub shows that as of today, Oct. 6 2020, Banco Santander says

See page 4

A pp . F

my loan account shown on my Petition 20-5069
was Paid after collection and it was a profit loss: BUT THAT IS NOT TRUE:

See Petition

Santander never recognized the loan I paid to then was fully updated
last May 26, 2017, never wanted to update the information at the credit bureaus,
and kept reporting it as failed to pay, as late as of July 8 2020 when the Petition was filed.
But Santander went even further, prohibiting my regular monthly payments
last March 2020, no matter there was a remaining balance I wanted to keep paying.
THEY PROHIBITED MY PAYMENTS TO MAKE IT LOOK LIKE A PROFIT LOSS.
See Petition and its Index of Appendixes

P. 6

7. Unable to pay for an updated FICO Credit Report as of Oct. 6 2020
without affecting my daily expenses, I urge the Justices to Reconsider;

APP. F

The Lower Courts are not the Supreme Court, but without an intervention
from the Supreme Court, denying my Petition no matter the merits
and the evidence, there is a main bank violating the Fair Credit Reporting Act, who also:
- sold his Puerto Rico Division, and left the Island, for more than 1 Billion dollars,
but, that is not required to report my accounts with precision,
destroying my credit unfairly, at the eyes of 3 Courts of Justice?
- All the Santander Puerto Rico Division employees could loose I caste
their jobs next Christmas 2020, when First Bank fully absorbs
Santander Bank of Puerto Rico Operations, having no room
for the additional employees of Santander at First Bank Puerto Rico;

PE

Santander Bank Management acted in this Case just like a thief, anyone can see that.
This Rehearing Request arrives with updated information which took place
after the Petition was filed last July 8 2020;
Was filed within 25 days after the date of the order of denial;
it complies with all the form and filing requirements of paragraph 1 of Rule 44.
except that I as Petitioner, am proceeding in forma pauperis.
This Petition for the Rehearing of order denying Writ of Certiorari,
No. 20-5069, on October 5, 2020
is presented in good faith and not for delay, and should be granted

410 enitici ue, f44adt—,oi toci)z.
Page 7

